App. 1
NOT TO BE PUBLISHED
IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits
courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion has
not been certified for publication or ordered published for purposes of rule 8.1115.
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
FRED S. PARDES,
Plaintiff and Appellant,
v.
ANDREW S. WIENICK et al.,

G057362
(Super. Ct. No.
16FL000271)
OPINION

Defendants and Respondents. (Filed Mar. 11, 2020)
Appeal from a judgment of the Superior Court of
Orange County, Salvador Sarmiento, and Linda Lancet
Miller (retired judge of the Orange Super. Ct. assigned
by the Chief Justice pursuant to art. VI, § 6 of the Cal.
Const.), Judges. Affirmed.
Fred S. Pardes, in pro. per., for Plaintiff and Appellant.

App. 2
Law Office of Robert Newman and Robert Newman for Defendants and Respondents.
*

*

*

Appellant Fred S. Pardes appeals from the trial
court’s order denying his petition for grandparent visitation under Family Code section 3102.1 Pardes is
the maternal grandfather of N.W. and S.W. (the grandchildren), and the father of Jennifer Wienick (mother)
who died in 2015 and was the children’s natural
mother. Respondents Andrew S. Wienick and Darshann
M. Wienick (the Wienicks) are the children’s natural
father and adoptive stepmother.
Pardes asserts 19 grounds for appeal in his table
of contents, asserting each constitutes “prejudicial and
reversible error.” His opening brief lists 22 “significant
and novel issues in Grandparent Visitation law.” Many
of these grounds and issues are reiterations of Pardes’s
view of the underlying facts and are in effect requests
for us to reweigh the evidence, which is something we
cannot do.
In addition, many of Pardes’s grounds are not supported by citations to the record; others are not accompanied by any legal argument or authority. (See Cal.
Rules of Court, rule 8.204(a)(1)(c).) Based on such violations, we could dismiss the appeal or strike Pardes’s
briefs. (Spangle v. Farmers Ins. Exchange (2008) 166
Cal.App.4th 560, 564, fn. 3.) We decline to do so.
1

All further statutory references are to the Family Code unless otherwise indicated.

App. 3
Instead, we shall disregard any unsupported factual
claims and treat any arguments not based on accurate
citations to the record and legal authority as forfeited.
(Butte Fire Cases (2018) 24 Cal.App.5th 1150, 1169, fn.
10; Provost v. Regents of University of California (2011)
201 Cal.App.4th 1289, 1294.)
We find Pardes has not shown the trial court erred
by denying his petition for visitation based on his failure to meet the applicable burden of proof under section 3102. We therefore affirm.
FACTUAL AND PROCEDURAL HISTORY
In 2016, Pardes filed a “Petition for Grandparent
Visitation.” The Wienicks opposed it. A subsequent
evidentiary hearing occurred over several days in 2017
and 2018.
Pardes called Alice Nelson as a witness. Nelson
had a personal relationship with Pardes since 2013.
Between 2013 and mother’s death in June 2015, Nelson was at Pardes’s house at times when mother had
her post-dissolution custodial visitations with her children. Nelson observed what she described as “loving”
interactions between Pardes and the grandchildren,
and said they called him “Papa.” Nelson authenticated
photographs from this time period as either being
taken by her or by mother. The photos depicted Pardes
and the grandchildren in a variety of settings in and
around Pardes’s residence in Dana Point.

App. 4
Nelson stated that, on all but two or three occasions, the children’s visits with Pardes occurred during
mother’s custodial visitation time. The few occasions,
when mother was not present, and Pardes was
“babysitting,” lasted “maybe an hour.” Nelson was unaware of any occasion when Pardes was the only adult
taking care of the grandchildren.
Pardes testified. He authenticated additional photographs depicting him and the grandchildren, which
he stated were taken in 2012, 2013, and 2014.
Before recessing the matter, the trial court told
Pardes that when the hearing resumed he was to focus
on the “second part of [section 3102], which is best interest [of the grandchildren] in terms of exercising visitation with you; . . . [¶] I want you to spend the next
time we’re back on detriment [to the grandchildren].”
The court also appointed an attorney, Diane Vargas, to
represent the grandchildren.
When the evidentiary hearing resumed, Vargas
told the court “the children are not of sufficient age nor
of sufficient maturity to render an opinion as to
whether or not they should see or not see their grandfather.” She added, “They have a relationship with
their maternal grandmother [from] whom [Pardes] is
divorced, and they don’t have a relationship with
[Pardes] now. . . . [t]hey say that they do not want to
see [Pardes].” One grandchild told Vargas, “I don’t remember my grandfather, but he turned out to be mean,
stole my grandmother’s money.” The other grandchild
told her “he did not want to see [Pardes],” and stated,

App. 5
“he speaks with a pseudo-New York accent, he is burly
and he tickles me, and I don’t like to be touched.” Vargas added the grandchildren were aware of and “involved in” the ongoing litigation between the parties.
Pardes attempted to present expert testimony
from Dr. Leslie Drozd, an expert in child custody evaluations and parental alienation issues; he stated Dr.
Drozd had not spoken to the Wienicks or to the grandchildren. The court excluded the testimony stating, “I
do not believe that the expert that [Pardes] has
brought in can give us any opinions as to the best interest or detriment to these children in that the expert
has not spoken to the children or the parents . . . [and
she] cannot give any opinions, which, in reality, is what
I would need from an expert.”
Pardes resumed his testimony, and introduced a
series of e-mails showing the hostile interactions between Pardes and the Wienicks. He testified that, despite the animosity, he had made unsuccessful
attempts to reconcile with the Wienicks.
The court reminded Pardes the focus of the inquiry
was the grandchildren, not his relationship with the
Wienicks. Pardes finally explained that “[b]y not having a loving grandparent, grandfather in their lives, I
believe the children are suffering an injury.” He offered
a list of things he could and would do that would benefit the grandchildren if he were given visitation
rights; he did not offer any evidence of doing such
things in the past.

App. 6
Pardes acknowledged his last visit with the grandchildren was in June 2015, just before mother died. He
introduced e-mails showing attempts after mother’s
death by the parties to create an agreeable visitation
arrangement. Pardes testified he had brief, five-minute
telephone and FaceTime contacts with the grandchildren between October 2015 and early December 2015.
He stated these were his last contacts with the grandchildren. Pardes concluded by introducing additional
pre-2015 photographs, again taken during mother’s
custodial visits with the grandchildren.
At that point, and without taking any evidence
from the Wienicks, the trial court “invite[d] argument
on a nonsuit,” ordered additional briefing, and scheduled oral argument. The Wienicks responded by filing
a “Motion for Judgement Under CCP § 631.8,” alleging
Pardes had failed to meet his burden of proof for grandparent visitation under section 3102. Pardes filed a
lengthy opposition. After argument, the court granted
the Wienicks’ motion.2
In its statement of decision, the court made factual
findings: (1) Pardes’s argument that visitation is always in the best interests of the grandchildren does not
“equate or equal” what is in the best interests of the
2

Pardes argues the Wienicks’ motion was “grossly inadequate” because it did not specify the purported defects in his case.
He cites as support cases involving Code of Civil Procedure (CCP)
section 581c, which applies in jury trials. The Wienicks’ motion
was properly brought as a motion for judgment under CCP section
631.8, which is applicable to court trials. (Lingenfelter v. County
of Fresno (2007) 154 Cal.App.4th 198, 204-205.)

App. 7
grandchildren; (2) Pardes “has not had contact” with
the grandchildren in three years; (3) the younger
grandchild was seven years old at the time of the hearing and was only four when he last saw Pardes; (4) any
earlier bonding between the younger grandchild and
Pardes is “likely no longer present”; (5) the older grandchild was 12 years old at the time of the hearing and
he had not had “meaningful contact” with Pardes since
he was nine; (6) Pardes’s evidence regarding his earlier
“relationship with the grandchildren” was “very, very
weak”; (7) Pardes did not submit “any evidence whatsoever” of a current relationship with the grandchildren; (8) Pardes’s evidence showed his only prior
contacts with the grandchildren were “during their
mother’s custodial time”; (9) Pardes failed to establish
any “detriment to the [g]randchildren in not having
visitation with [Pardes]”; and (10) Pardes “failed to establish that it would be in the best interests of the
grandchildren to have visitation.”
As conclusions of law, the court found: (1) Pardes
failed to meet his burden of proving by clear and convincing evidence that it was in the best interests of the
grandchildren to have visitation; (2) the Wienicks were
presumed to act in the best interests of their children
in deciding visitation issues, and Pardes failed to provide any evidence the Wienicks failed to act in their
children’s best interests; (3) the Wienicks’ decision to
deny Pardes visitation does not indicate they are unfit
parents, and Pardes failed to introduce any evidence
the Wienicks were unfit; and (4) in order to obtain visitation, Pardes was required to satisfy both prongs of

App. 8
the two-part test found in section 3104, subdivision (a),
which he failed to do by clear and convincing evidence.
DISCUSSION
1. Legal Background
“Grandparents’ rights to court-ordered visitation
with their grandchildren are purely statutory.” (In re
Marriage of Harris (2004) 34 Cal.4th 210, 219 (Harris).)
“If either parent of an unemancipated minor child is
deceased, the . . . parents . . . of the deceased parent
may be granted reasonable visitation with the child
during the child’s minority upon a finding that the visitation would be in the best interest of the minor child.”
(§ 3102, subd. (a).) As for the rights of a surviving parent, however, there are important constitutional considerations.
Troxel v. Granville (2000) 530 U.S. 57 (Troxel) involved grandparents who sought visitation rights with
their deceased son’s children over the objection of the
surviving parent.
A plurality of the high court found “the Due Process Clause of the Fourteenth Amendment protects
the fundamental right of parents to make decisions
concerning the care, custody, and control of their children.” (Troxel, supra, 530 U.S. at p. 66 (plur. opn. of
O’Connor, J.).) ‘ “The law’s concept of the family rests
on a presumption that parents possess what a child
lacks in maturity, experience, and capacity for judgment required for making life’s difficult decisions.

App. 9
More important, historically it has recognized that
natural bonds of affection lead parents to act in the
best interests of their children.” ’ (Id. at p. 68 (plur. opn.
of O’Connor, J.).) Thus, “so long as a parent adequately
cares for his or her children (i.e., is fit), there will normally be no reason for the State to inject itself into the
private realm of the family to further question the ability of that parent to make the best decisions concerning the rearing of that parent’s children.” (Id. at pp. 6869 (plur. opn. of O’Connor, J.).)3
“ ‘Encompassed within [this] well-established fundamental right of parents to raise their children is the
right to determine with whom their children should
associate.’ ” (Punsly v. Ho (2001) 87 Cal.App.4th 1099,
1107 (Punsly), disapproved on other grounds in Conservatorship of Whitley (2010) 50 Cal.4th 1206, 1226,
fn. 4.)
After Troxel, section 3102 has been held unconstitutional as applied where trial courts disregarded the
weight to be given to the surviving parent’s desires regarding visitation. (See, e.g., Zasueta v. Zasueta (2002)
102 Cal.App.4th 1242, 1253 (Zasueta) [court erred in
dismissing surviving parent’s concerns about visitation instead of according them special weight]; Punsly,
supra, 87 Cal.App.4th at p. 1109 [trial court erred because it did not apply a presumption that the surviving
parent’s visitation decisions were in the child’s best interest]; cf. Kyle O. v. Donald R. (2000) 85 Cal.App.4th
3

Souter, J. and Thomas, J. concurred in the judgment.
(Troxel, at pp. 75, 80.)

App. 10
848, 864 (Kyle O.) [parent was willing to allow grandparent visitation; he simply did not want a court-imposed visitation schedule; such schedule violated
Troxel].)
Even so, while “[a] custodial parent’s decisions regarding visitation are entitled to presumptive validity
and must be accorded ‘special weight,’ . . . they are not
immune from judicial review.” (Guardianship of L.V.
(2006) 136 Cal.App.4th 481, 493.) As a result, “[c]ourts
have construed section 3102 as requiring a rebuttable
presumption in favor of a fit surviving parent’s decision that grandparent visitation would not be in the
best interest of the child.” (Rich v. Thatcher (2011) 200
Cal.App.4th 1176, 1180 (Rich).) “To overcome the presumption that a fit parent will act in the best interest
of the grandchild, a grandparent has the burden of
proof and must show, by clear and convincing evidence,
that denial of visitation is not in the best interest of
the grandchild, i.e., denial of visitation would be detrimental to the grandchild. The fair import of the word
‘detriment’ is damage, harm, or loss. [Citation.] If
grandparent visitation is in the grandchild’s ‘best interest,’ it is not ‘detrimental.’ If grandparent visitation
is not in the grandchild’s ‘best interest,’ it is ‘detrimental.” (Ibid.; see Evid. Code, § 606 [“The effect of a
presumption affecting the burden of proof is to impose
upon the party against whom it operates the burden of
proof as to the nonexistence of the presumed fact”].)
The clear and convincing burden requires evidence that is ‘ “ ‘ “sufficiently strong to command the
unhesitating assent of every reasonable mind.’ ” ’ ”

App. 11
(Harris, supra, 34 Cal.4th at pp. 248, 250 (conc. & dis.
opn. of Chin, J.).) Such a substantial burden of proof
preserves and promotes a parent’s constitutionally
protected choice as to the best interests of the child. It
also preserves the constitutionality of section 3104 and
insures against erroneous and overreaching judicial
factfinding. (Harris, at p. 250 (conc. & dis. opn. of Chin,
J.).)
Section 3104 codifies additional procedures related to grandparent visitation under section 3102:
“On petition to the court by a grandparent of a minor
child, the court may grant reasonable visitation rights
to the grandparent if the court does both of the following: [¶] (1) Finds that there is a preexisting relationship between the grandparent and the grandchild that
has engendered a bond such that visitation is in the
best interest of the child. [¶] (2) Balances the interest
of the child in having visitation with the grandparent
against the right of the parents to exercise their parental authority.” (§ 3104, subd. (a)(1), (2).) In addition,
“[t]here is a rebuttable presumption affecting the burden of proof that the visitation of a grandparent is not
in the best interest of a minor child if the parent . . .
with whom the child resides . . . objects to visitation by
the grandparent.” (§ 3104, subd. (f ), italics added.)
2. Standard of Review
We review an order for grandparent visitation using the deferential abuse of discretion standard, viewing the evidence most favorably in support of the

App. 12
court’s order. (Rich, supra, 200 Cal.App.4th at p. 1182;
cf. Montenegro v. Diaz (2001) 26 Cal.4th 249, 255 [‘ “review of custody and visitation orders is the deferential
abuse of discretion test” ’].) When evaluating a trial
court’s ruling for an abuse of discretion, we review its
findings of fact for substantial evidence and its conclusions of law de novo. The trial court’s “application of
the law to the facts is reversible only if arbitrary and
capricious.” (Haraguchi v. Superior Court (2008) 43
Cal.4th 706, 712.) “The appellant bears the burden of
showing a trial court abused its discretion.” (F.T. v. L.J.
(2011) 194 Cal.App.4th 1, 16.)
3. Analysis and Application
A. The Presumption against Grandparent Visitation
Pardes contends the only applicable presumptions
in this matter favor him, not the Wienicks. We disagree.
Throughout his briefing, Pardes refers to what he
calls a “rebuttable presumption in favor of grandparent visitation,” and claims that because the Wienicks
failed to overcome this presumption below, reversal is
required. He never identifies the source or nature of
this presumption, or any authority showing its existence. We can find no such presumption in any California case or statute.4

4

Pardes also claims “[g]randparent visitation is a fundamental right.” Again he provides no authority to support his claim. In

App. 13
Pardes elsewhere refers to a rebuttable presumption that grandparent visitation is always in the best
interests of the grandchild. Again he provides no relevant authority to support such a presumption.5 Once
more, we can find none.
The authority Pardes offers for this supposed presumption does not help him. The trial court’s anecdotal
comments how grandparent visitation might be beneficial in a particular case do not “clearly establish” such
a presumption. Neither do attorney Vargas’s off-hand
comments to the court about how, as a grandmother
herself, “[i]t’s just good for kids to have grandparents if
those grandparents don’t have, you know, problems.”
Finally, the 1975 pre-Troxel New Jersey case—which
was based on a New Jersey statute almost identical to
the Washington statute found unconstitutional in
Troxel—is not persuasive.
Because the Wienicks objected to Pardes’s visitation with the grandchildren, we must presume that
fact, “[g]randparents’ rights to court-ordered visitation with their
grandchildren are purely statutory.” (Harris, supra, 34 Cal.4th
at p. 219; cf. White v. Jacobs (1988) 198 Cal.App.3d 122, 124-125
[there are no “general or inherent rights of grandparents or authority of superior courts to mandate visitation with a grandchild
over that child’s parents’ objection”].) Indeed, prior to the enactment of section 3102 (or its pre-Family Code predecessor, Civil
Code section 197.5), there was no vehicle for grandparent visitation at all.
5
Pardes argues the trial court erred by refusing to allow Dr.
Drozd’s expert testimony to purportedly “establish” this presumption. He misconstrues the meaning of a presumption. By its very
nature, a presumption does not require “establishing”; that is why
it is a presumption.

App. 14
visitation with Pardes was not in the best interest of
the grandchildren. (§ 3104, subd. (f ); In re Marriage of
W. (2003) 114 Cal.App.4th 68, 74-75; Fenn v. Sherriff
(2003) 109 Cal.App.4th 1466, 1479, fn. 4; Zasueta,
supra, 102 Cal.App.4th at p. 1253.) No other presumptions apply.
B. Pardes Did Not Show the Wienicks Were Unfit
Parents
Pardes argues he short-circuited any parental
Troxel presumption by proving at the outset the
Wienicks were unfit parents and therefore not entitled
to the benefit of the presumption against grandparent
visitation. Again, we must disagree.
It is true section 3102’s presumption only applies
in favor of a fit surviving parent’s decision that grandparent visitation would not be in the best interest of
the grandchild. (Rich, supra, 200 Cal.App.4th at p.
1180; Troxel, supra, 530 U.S. at p. 68 (plur. opn. of
O’Connor, J.) [“so long as a parent adequately cares for
his or her children (i.e., is fit)” the presumption applies].) However, Pardes did not establish the Wienicks
did not adequately care for the grandchildren in the
sense Justice O’Connor’s opinion discusses.
Pardes insists the Wienicks were unfit parents
only because of their personal animosity towards him
and their refusal to let him visit his grandchildren.
“I’m not saying [the Wienicks] are grossly unfit parents
on other issues,” he told the trial court. “I’m saying
that they are unfit as it relates to me.” He added the

App. 15
Wienicks’ “refusal to permit visitation of [the grandchildren] by myself, clearly, shows they are unfit parents.”
As his legal support for this claim, Pardes refers
us to Zasueta, supra, 102 Cal.App.4th at p. 1248. That
case does not support his argument. In Zasueta, it was
the trial court that found the surviving parent unfit.
Pardes’s quotation from Zasueta in his opening brief
regarding the parent’s unfitness in that case is misleadingly taken from the trial court’s order (ibid.),
which the Court of Appeal went on to reverse.
The Zasueta court found the “[Grandparents] did
not allege or present evidence that [surviving parent]
did not properly care for the minor child and was thus
an unfit parent. In fact, [grandmother] testified that
[surviving parent] was a good mother and she had no
reason to believe [she] would not act in the minor
child’s best interests. The court’s finding of unfitness
was erroneously based on the assumption that grandparent-grandchildren relationships always benefit
children.” (Zasueta, supra, 102 Cal.App.4th at p. 1253.)
“The [trial] court’s ‘announced presumption in favor of grandparent visitation’ effectively placed the
evidentiary burden on [surviving parent] to show the
visitation was not in the minor child’s best interests.
[Citation.] This error violated not only constitutional
principles, but also the language of section 3102,
which permits visitation where there has been a finding that visitation is in a child’s best interests. Here,
there was no such finding. Instead, the court presumed

App. 16
grandparent visitation was beneficial and, based on
this presumption, made a finding that [surviving parent] was an unfit parent. . . . [T]his was not a proper
basis for the court’s visitation order.” (Zasueta, supra,
102 Cal.App.4th at p. 1254.) Zasueta does not support
Pardes’s claim.
Finally, Pardes provides no authority for his proposition that parental fitness for purposes of the Troxel
presumption is determined by the relationship the surviving parent has with the grandparent, rather than
with the grandchildren. Pardes thus failed to avoid the
Troxel presumption here.
C. Pardes Failed to Satisfy Section 3104
Pardes’s first evidentiary challenge to overcome
the Troxel presumption was to show there was a preexisting relationship between him and the grandchildren. (§ 3104, subd. (a)(1).) The Wienicks stipulated to
this. The court accepted the Wienicks’ offer to stipulate
and found “that element within the statute will have
been met.”
Pardes nonetheless also had to show this “preexisting relationship . . . engendered a bond such that
visitation is in the best interest of the [grandchildren].”
(§ 3104, subd. (a)(1).) Only if Pardes carried his burden
as to this threshold showing would the inquiry move
on to the second step, i.e., balancing the grandchildren’s interest in having visitation with Pardes
against the Wienicks’ right to exercise their parental
authority. “[T]he nature of the preexisting relationship

App. 17
serves to determine whether the petition may be
granted, what the grandchild’s best interests require,
and the type of visitation that might be appropriate.”
(Stuard v. Stuard (2016) 244 Cal.App.4th 768, 787,
italics added.)
To overcome the Troxel presumption, Pardes was
obliged to show, by clear and convincing evidence, his
preexisting bond with the grandchildren was so strong
that denial of visitation would not be in their best interest and, in fact, would be detrimental to them. (Rich,
supra, 200 Cal.App.4th at p. 1180; Harris, supra, 34
Cal.4th at p. 230.) Based on the record before us,
Pardes failed to meet this formidable burden.
Pardes disagrees with this procedural analysis
and cites Hoag v. Diedjomahor (2011) 200 Cal.App.4th
1008 (Hoag) to support his position. His reliance on
that case is misplaced.6 In Hoag, “the trial court found
that the surviving parent’s claimed reasons for objecting to visitation were not reasonable and not credible;
in essence, as he practically admitted on the stand, he
objected to visitation mainly to spite the grandparent.
Moreover, he admitted that grandparent visitation
would be in the best interest of the children. Thus, the
6

Pardes also refers us to our non-published decision in Alma
M. v. Katrina T. (Aug. 6, 2013, G047558) [nonpub. opn.], and insists he can “cite this case, although it is not certified for publication.” He is incorrect. Except for situations not present here, “an
opinion of a California Court of Appeal . . . that is not certified for
publication or ordered published must not be cited or relied on by
a court or a party in any other action.” (Cal. Rules of Court, rule
8.1115(a).)

App. 18
presumption that he was acting in the best interest of
his children was overcome, and the trial court constitutionally could and did grant the grandparent’s visitation petition.” (Id. at p. 1010, italics added.)
Here, the e-mail evidence Pardes himself introduced shows the Wienicks feared he would be a bad influence on the children. The Wienicks did not admit
grandparent visitation would be in the best interests
of the grandchildren. Indeed, Pardes’s e-mail evidence
again shows they were adamant in their belief it would
be detrimental.
Thus unlike here, the first prong of the section
3102 test was established in Hoag, and the Troxel presumption vanished. “This not only allowed but affirmatively required the trial court to determine what
visitation schedule was in the best interest of the children.” (Hoag, supra, 200 Cal.App.4th at p. 1020.) Here,
Pardes failed to make such a showing.
The trial court found Pardes failed to produce
clear and convincing evidence of the preexisting bond
with his grandchildren was so strong that denial of visitation would be detrimental to them. On the record
before us, we cannot find this was an abuse of discretion.
D. The Deceased Mother’s “Interests”
Pardes argues the deceased mother retained cognizable legal interests in this matter, and he is entitled

App. 19
to vicariously assert them on her behalf. He claims,
“A deceased parent still has some legal rights. The
right to remain a memory to their children. The
Wienicks do not have the right to wipe out [the grandchildren’s] memory of [their mother], who regardless
of her mothering skills, deeply loved both boys.” He
alleges section 3102 “grants a deceased person legally
enforceable rights, to have a family member remain as
part of their children’s lives.”
We are not persuaded a deceased mother has due
process rights in this context, or that her progenitor
has standing to raise them. Pardes gives us no authority to support this novel position. Absent authority for
such a claim, we reject it. (Ewald v. Nationstar Mortgage, LLC (2017) 13 Cal.App.5th 947, 948.)
But even if we were to address it, the claim would
fail. “[A]s a matter of law, [mother’s] death did not
imbue the grandparents with their daughter’s parental rights or diminish [surviving parent’s] parental
rights.” (Kyle O., supra, 85 Cal.App.4th at p. 863.) “To
avoid a facial constitutional challenge, we can only interpret section 3102 to confer upon the blood relatives
of a deceased parent standing to seek court ordered
visitation. ‘Nothing in the unfortunate circumstance
of one biological parent’s death affects the surviving
parent’s fundamental right to make parenting decisions concerning their child’s contact with grandparents.’ ” (Punsly, supra, 87 Cal.App.4th at p. 1106, fn. 6.)

App. 20
Section 3102 has nothing to do with the deceased parent’s “rights,” real or imagined.7
4. Conclusion
Pardes had the burden to show the Wienicks’ decision regarding grandparent visitation was not in the
grandchildren’s best interests. The evidence he offered
to support such a claim was the Wienicks’ hostility toward him over matters unrelated to the interests of
the grandchildren, and as the trial judge observed, a
“very, very weak” showing of a previous relationship,
based mainly on photographs taken while the grandchildren were visiting their mother. Pardes’s testimony
regarding what he could and would do for the grandchildren if he were to be given visitation privileges in
7

In a single line in his opening brief, Pardes suggested the
derivative rights he purportedly obtained from mother when
she died were violated by the Wienicks’ “grandparent alienation”
efforts, but offered no further authority or discussion. In his reply
brief, he offers a five-page discussion of “grandparent alienation,”
arguing the notion of parental alienation in child-custody disputes should be imported into grandparent visitation petitions.
Arguments raised for the first time in a reply brief will not be
considered absent good cause for failure to present them earlier.
(Nordstrom Com. Cases (2010) 186 Cal.App.4th 576, 583.)
In any event, Pardes has not provided any persuasive authority to import a concept from the unique context of child custody
into a visitation case. As noted, grandparent visitation rights
are entirely statutory (Harris, supra, 34 Cal.4th at p. 219), and
Pardes provides us with no statutory basis from which to find “alienation” relevant to the grandparent visitation context. To the
extent Pardes argues it might be good public policy to apply a
similar alienation analysis to the grandparent visitation statute,
that debate must be left to the Legislature.

App. 21
the future adds little to the nature of the preexisting
bond with his grandchildren.
The trial court determined Pardes’s evidence
failed to meet the substantial burden of proof he
faced to overcome the Troxel presumption. The record
demonstrates the trial court considered Pardes’s previous relationship with the grandchildren and the nature of any bond they may once have shared. There was
no evidence of an existing bond, nor any evidence the
grandchildren desired to visit with Pardes. Pardes’s relationship with the Wienicks is irrelevant for section
3102 purposes.
Pardes’s showing below was not “ ‘ “of such a character and weight as to leave no room for a judicial
determination that it was insufficient to support” ’ ”
the trial court’s findings of fact and conclusions of law.
(Dreyer’s Grand Ice Cream, Inc. v. County of Kern
(2013) 218 Cal.App.4th 828, 838.) This record discloses
neither a miscarriage of justice nor an abuse of discretion.
DISPOSITION
The order denying Pardes’s petition for grandparent visitation is affirmed. The Wienicks are entitled to
their costs on appeal.
GOETHALS, J.

App. 22
WE CONCUR:
MOORE, ACTING P. J.
DUNNING, J.*
*Retired Judge of the Orange Superior Court, assigned
by the Chief Justice pursuant to article VI, section 6 of
the California Constitution.

App. 23
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
FRED S. PARDES,

G057362

Plaintiff and Appellant,

(Super. Ct. No.
16FL000271)

v.
ANDREW S. WIENICK et al.,

ORDER

Defendants and Respondents. (Filed Apr. 2, 2020)
The petition for rehearing is DENIED.
GOETHALS, J.
WE CONCUR:
MOORE, ACTING P. J.
DUNNING, J.*
*Retired Judge of the Orange Superior Court, assigned
by the Chief Justice pursuant to article VI, section 6 of
the California Constitution.

App. 24
ATTORNEY OR PARTY
WITHOUT ATTORNEY (Name,
state bar number, and address):
FRED S. PARDES, In Pro Per
A Professional Corporation
34145 Pacific Coast Highway,
Suite 520
Dana Point, CA 92629
TELEPHONE NO.: (949) 443-3400
FAX NO. (Optional):
E-MAIL, ADDRESS (Optional):
fred@fredpardes.com
ATTORNEY FOR (Name): Fred Pardes
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF Orange
STREET ADDRESS: 341 The City
Drive South
MAILING ADDRESS:
CITY AND ZIP CODE: Orange, CA
92868-3205
BRANCH NAME: Lamoreaux Justice
Center
PLAINTIFF: Fred S. Pardes
DEFENDANT: Andrew S. Wienick,
[Darshann Padilla Wienick]
[PROPOSED] JUDGMENT—
[Grandparent Visitation]
⬜ By Clerk ⬜ By Default
⬜ After Court Trial
☒ By Court ⬜ On Stipulation
⬜ Defendant Did Not
Appear at Trial

FOR COURT
USE ONLY
(Filed
Dec. 24, 2018)

CASE
NUMBER:
16FL000271

App. 25
JUDGMENT
1. ⬜ BY DEFAULT
a.

Defendant was properly served with a copy
of the summons and complaint.

b.

Defendant failed to answer the complaint or
appear and defend the action within the
time allowed by law.

c.

Defendant’s default was entered by the
clerk upon plaintiff ’s application.

d.

⬜ Clerk’s Judgment (Code Civ. Proc.,
§ 585(a)). Defendant was sued only on a contract or judgment of a court of this state for
the recovery of money.

e.

⬜ Court Judgment (Code Civ. Proc.,
§ 585(b)). The court considered
(1) ⬜ plaintiff ’s testimony and other evidence.
(2) ⬜ plaintiff ’s written declaration (Code
Civ. Proc., § 585(d)).

2. ⬜ ON STIPULATION
a.

Plaintiff and defendant agreed (stipulated)
that a judgment be entered in this case. The
court approved the stipulated judgment
and

b.

⬜ the signed written stipulation was filed
in this case.

c.

⬜ the stipulation was stated in open court
⬜ the stipulation was stated on the record.

App. 26
3. ☒ AFTER COURT TRIAL. The jury was waived.
The court considered the evidence.
a.

The case was tried on (date and time): July
26, 2017, September 11, 2017, September 19,
2017*** See before (name of judicial officer):
Hon. Salvador Sarmiento

b.

Appearances by:
☒ Plaintiff (name each):
(1) Fred Pardes
(2)
⬜ Plaintiff ’s attorney (name each):
(1) In Pro Per
(2)
⬜ Continued on Attachment 3b.
☒ Defendant (name each):
(1) Andrew Wienick
(2) Darshann Wienick
☒ Defendant’s attorney (name each):
(1) Richard Newman
(2) Richard Newman
⬜ Continued on Attachment 3b.

c.

⬜ Defendant did not appear at trial. Defendant was properly served with notice of
trial.

d.

☒ A statement of decision (Code Civ. Proc.,
§ 632) ⬜ was not ☒ was requested.

App. 27
JUDGMENT IS ENTERED AS FOLLOWS BY:
⬜ THE COURT
⬜ THE CLERK
4. ⬜ Stipulated Judgment. Judgment is entered according to the stipulation of the parties.
5.

Parties. Judgment is
a. ⬜

for plaintiff (name each):
and against defendant (names):
⬜ Continued on Attachment 5a.

b. ☒ for defendant (name each): Andrew Wienick,
Darshann Wienick
c. ⬜

for cross-complainant (name each):
and against cross-defendant (name each):
⬜ Continued on Attachment 5c.

d. ⬜
6.

for cross-defendant (name each):

Amount.
a. ⬜ Defendant named in item 5a above must
pay plaintiff on the complaint:

(1) ⬜ Damages
(2) ⬜ Prejudgment interest
at the annual rate of
(3) ⬜ Attorney fees
(4) ⬜ Costs
(5) ⬜ Other (specify):
(6)

TOTAL

$ N/A
$
%
$
$
$
$

App. 28
b. ☒ Plaintiff to receive nothing from defendant
named in item 5b.
⬜ Defendant named in item 5b to recover
costs $
⬜ and attorney fees $
c. ⬜ Cross-defendant named in item 5c above
must pay cross-complainant on the crosscomplaint:
(1) ⬜ Damages
(2) ⬜ Prejudgment interest
at the annual rate of
(3) ⬜ Attorney fees
(4) ⬜ Costs
(5) ⬜ Other (specify):
(6)

TOTAL

$
$
%
$
$
$
$

d. ⬜ Cross-complainant to receive nothing from
cross-defendant named in item 5d.
⬜ Cross-defendant named in item 5d to
recover costs $
⬜ and attorney fees $
7. ☒ Other (specify): The Court reviewed, considered
and overruled all of Petitioner’s Objection to Respondents’ Proposed Statement of Decision. See
attachment to Judgment.
Date:
December

☒

, 2018

see next page
JUDICIAL OFFICER
Hon. Salvatore Sarmiento
⬜ Clerk, by [Illegible] , Deputy

App. 29
(SEAL)

CLERK’S CERTIFICATE (Optional)
I certify that this is a true copy of the
original judgment on file in the court.
Date:

[Filed Dec. 5, 2018]

Clerk, by

, Deputy

ATTACHMENT (Number): One
(This Attachment may be used with
any Judicial Council form.)
JUDGMENT
3(A) CONTINUED:
October 10, 2017, November 14, 2017, January 23,
2018, March 20, 2018, May 7, 2018, June 21, 2018, and
July 13, 2018
7-CONTINUED:
The Court finds that Petitioner has failed to prove, by
clear and convincing evidence, that it is in the best
interests of the grandchildren Nathan Wienick and
Samuel Wienick to have visitation with Petitioner
Fred Pardes or that there is any detriment to the
grandchildren in not having visitation with Petitioner/Grandfather, and hereby denies Petitioner Fred
Pardes’ Petition for Grandparent Visitation

App. 30
Respondents Andrew Wienick and Darshann Wienick
are granted Judgment on Petitioner Fred Pardes’ Petition for Grandparent Visitation.
December 24, 2018

/s/ [Illegible]
Judge Salvador Sarmiento
[Judge Linda Lancet Miller]
[Reviewed pursuant to
CRE 3.15.90]
LINDA LANCET MILLER
JUDGE

(If the item that this Attachment concerns is made under penalty of perjury, all statements in this Attachment are made under penalty of perjury.)

App. 31
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF ORANGE –
LAMOREAUX JUSTICE CENTER
FRED PARDES,
Petitioner,
vs.
ANDREW WIENICK and
DARSHANN WIENICK
Respondents.

)
)
)
)
)
)
)
)

CASE NO.:
16FL000271
STATEMENT OF
DECISION/NOTICE
OF RULING
(Filed Sep. 10, 2018)

TO ALL PARTIES AND THEIR ATTORNEYS
OF RECORD HEREIN:
Respondent’s ANDREW WIENICK and DARSHANN WIENICK respectfully submit the following
proposed Statement of Decision and Notice of Ruling
on Petitioner FRED PARDES’ Petition for Grandparent Visitation, filed on July 19, 2016.
The within matter came on and/or was set for
hearing before the Honorable Salvatore Sarmiento on
July 26, 2017, September 11, 2017, September 19,
2017, October 10, 2017, November 14, 2017, January
23, 2018, March 20, 2018, may 7, 2018, June 21, 2018
and July 13, 2018, Fred Pardes, Esq., in pro per representing Petitioner FRED PARDES and Robert Newman, Esq. appearing on behalf of Respondents
ANDREW WIENICK and DARSHANN WIENICK. At
the conclusion of Petitioner FRED PARDES’ case in

App. 32
chief, the court invited written briefs on a Motion for
Judgment under California Code of Civil Procedure
§631.8. Respondents submitted a written Motion for
Judgment, Petitioner sumbitted a written Opposition,
and Respondents submitted a written Reply to Opposition.
The matter was set for oral argument, which was
heard by the court on July 13, 2018, with Fred Pardes,
Esq., in pro per representing Petitioner FRED
PARDES and Robert Newman, Esq. appearing on behalf of Respondents ANDREW WIENICK and DARSHANN WIENICK.
At the conclusion of oral argument, the court having considered Respondent’s Motion for Judgment, any
Opposition and Reply thereto, as well as oral argument, the court granted Respondents’ Motion for Judgment.
FINDINGS OF FACT
The court makes the following findings of fact:
1.

Petitioner’s statements that it is in the best
interests of the children to have visitation
does not equate or equal what is in the best
interests of the children;

2.

Petitioner has not had contact with the minor
children in three years;

3.

Samuel had just turned 7 as of the date of the
hearing, and was only 4 when he last saw Petitioner;

App. 33
4.

Any bonding between Samuel and Petitioner
that may have occurred is likely no longer present;

5.

Nathan was 12 as of the date of the hearing,
and had not had meaningful contact with Petitioner since Nathan was 9 years of age;

6.

The evidence presented by Petitioner was
very, very weak in terms of Petitioner’s relationship with the grandchildren;

7.

Petitioner did not submit any evidence whatsoever of his relationship with the grandchildren;

8.

Petitioner’s evidence showed that Petitioner
had contact with the minor children during
their mother’s custodial time;

9.

Petitioner has failed to establish any detriment to the Grandchildren in not having visitation with Petitioner;

10. Petitioner has failed to establish that it would
be in the best interests of the grandchildren
to have visitation with Petitioner.
CONCLUSION OF LAW1
1.

1

Petitioner bears the burden of proof, which is
by clear and a convincing evidence standard,
to establish that it is in the best interests of
the minor children to have visitation with Petitioner/Grandparent (Rich v. Thatcher (2011)

Any Finding of Fact deemed to be a Conclusion of Law is
hereby held to be a Conclusion of Law

App. 34
200 CalApp4th 1176; IRMO Harris (2004) 34
Cal4th 210). Petitioner has failed to meet his
burden of proof;
2.

Respondents/Parents are presumed to act in
the best interests of their children when deciding with whom they will have visitation
(Troxel v. Granville (200) 530 US 57; 120 S CT
2061). There was no evidence in this matter
that Respondent’s have failed to act in the
best interests of their children;

3.

A parent’s decision to deny grandparent visitation cannot be the basis for the claim that a
parent is unfit (Zasueta v. Zasueta (2002) 102
CalApp4th 1242. Petitioner failed to present
any evidence that Respondents are unfit parents;

4.

Family Code §3104, specifically requires a
grandparent to satisfy the two-prong test under Family Code section 3104(a), which states:
“On petition to the court by a grandparent of
a minor child, the court may grant reasonable
visitation rights to the grandparent if the
court does both the following:
(1) Finds that there is a preexisting relationship between the grandparent and the grandchild that has engendered a bond such that
visitation is in the best interest of the child.
(2) Balances the interest of the child in having
visitation with the grandparent against the
right of the parents to exercise their parental
authority.

App. 35
Here. Petitioner has failed to meet his burden
of proof under Family Code §3104(a) by clear
and convincing evidence.
RULING/DECISION
The Court hereby incorporates by reference its
Findings of Fact and its Conclusions of Law numbered.
The Court finds that Petitioner has failed to prove,
by clear and convincing evidence, that it is in the best
interests of the grandchildren to have visitation with
Petitioner or that there is any detriment to the grandchildren in not having visitation with PetitionerGrandfather.
The Petition of FRED PARDES is hereby died
and Judgment is entered in favor of Respondents
ANDREW WIENICK AND DARSHANN WIENICK on
the Petition of FRED PARDES.
NOW, THEREFORE, IT IS ORDERED, ADJUDGED AND DECREED that this is the ruling of
the Court on FRED PARDES’ Petition.
Dated: SEP 10 2018

/s/ [Illegible]
JUDGE SALVADOR
SARMIENTO
Judge of the Superior Court

App. 36
Court of Appeal, Fourth Appellate District,
Division Three – No. G057362
S261936
IN THE SUPREME COURT OF CALIFORNIA
En Banc
FRED S. PARDES,
Plaintiff and Appellant,
v.
ANDREW S. WIENICK et al.,
Defendants and Respondents.
(Filed Jun. 24, 2020)
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

App. 37
EXHIBIT NO. 18
🗹 ID only (Date) OCT 10 2017
🗹 IN EVIDENCE (Date) OCT 10 2017
⬜ Plaintiff/People
🗹 Petitioner
⬜ (Other)

⬜ Defendant
⬜ Respondent

⬜ Joint
⬜ Court

Atty/Party Introducing Sensitive Exhibit
Case No. 16FL000271
Pardes
Vs.
Wienick
Alan Carlson, Executive Officer and Clerk
By

D.Hentschke

, Deputy

NOTE: THIS ITEM IS A PERMANENT COURT
RECORD. DO NOT REMOVE FROM THE
COURTROOM
(CT 778)

App. 38
Fred Pardes
From:
Sent:
To:
Cc:
Subject:

Andrew Wienick <awienick@gmail.com>
Tuesday, December 08, 2015 8:23 PM
Fred Pardes
Darshann Wienick
In re: your voicemail to Darshann [12/08/15]

Fred,
It has been brought to my attention that it is your intent to come to my house tomorrow, Wednesday, December 9th, to give Nathan, Sophie, and Samuel some
semblance of a Hannukkah present, and then spend
time with them.
Let me be the first to inform you that is NOT going to
be happening, for a myriad of reasons:
1.

You are actively attempting to deprive Nathan and Samuel of their inheritance. You
have made no bones about the fact that you
feel you are due some $40-50k from Jennifer’s
estate. I don’t know how it’s possible for you
to square the fact that you are proposing to
deplete the majority of that which Jennifer
left Nathan and Samuel while simultaneously
giving them a trivial gift in order to attempt
to cement yourself in their memories. And, on
top of that, your counsel to Jennifer since she
abandoned the household back in 2012, led me
to exhaust the entirety of my savings and my
trust in order to keep my children safe.

2.

You had a chance to make the right decision
and make your peace with me when I emailed
you back in February to alert you to WHO

App. 39
exactly was living with daughter and your
grandsons, and you chose to double-down repeatedly over the next 10 months, to the point
of defending Jason Brimer when I had genuine concerns and harassment claims regarding his behavior towards me, to forcing me to
waste time/resources going to Court to defend
against your entirely frivolous lawsuits, to
maligning me in legal communications which
didn’t even concern me. How exactly is that
burying the hatchet again?
3.

You seem to blame all of your legal woes at
the moment on Michelle, including your rationale for attempting to evict the children
with Jennifer, and for seeking the $40k+ from
Jennifer’s estate – let me tell you, I’ve been
following your dissolution action closely since
the 3rd Quarter of 2014, and 11111 wellaware of who’s abusing the legal system and
who is not; I’m not sure you’re aware of this,
but the boys adore Michelle, and for you to use
your status as an Officer of The Court to continue to abuse your wife by circumventing the
existing [and more than justified) DVTRO is
simply reprehensible. While you continue to
terrorize their grandmother, you will have no
part in Nathan or Samuel’s lives.

4.

I do not want my children to spend even a
millisecond with a serial adulterer, a liar, a
manipulator, and a violent man whose moral
compass points any which way it suits him; I
am well-aware of your dalliances, your subterfuges, and your chicanery. And, as the boys’ father, who is more than a fit parent, I have the

App. 40
right under Troxel to make the decision to
protect my children from people of such a vast
ethical and moral deficit.
5.

Nathan wants nothing to do with you; the
thought of having to interact with you raises
his anxiety to levels I have not seen since he
last had to go to stay with Jennifer. Given
Samuel’s age, he’s unlikely to have a strong
opinion either way, but it’s a moot point, due
to #4. However, if you were to spend time with
Samuel, I expect that he’d spend the majority
of the time asking you why you haven’t put
Jason in jail yet.

My wife reached out to you in good faith, in an attempt
to minimize our family’s exposure to litigation. You
lauded Darshann for going above and beyond in order
to facilitate the establishment of a relationship with
Nathan, Samuel, and Sophie. And you squandered it.
For Mk Because that’s apparently what your relationship with your grandsons is worth to you.
If you truly are hurting for that $40-50k (which I find
laughably hard to believe), then why are you retiring?
Or maybe you could sell some of your various assets,
including your fancy Dana Point home. That said, if
you’re dead-set on taking money from Jennifer’s estate,
then I suggest you bring it up with Bonnie Rosen. It is
beyond unconscionable that Rosen bilked Jennifer out
of at least $60k this year alone by advising Jennifer to
fight the 730 Evaluation when Rosen admitted to Richard Sullivan this Spring that a 730 was clearly necessary in this case.

App. 41
This email requires no response. Do NOT deign to
bother me or my family again, unless you’re willing to
make things right. Actions speak louder than words.
—Andrew

(CT 780)

App. 42
EXHIBIT NO. 19
☒ ID only (Date) OCT 10 2017
☒ IN EVIDENCE (Date) OCT 10 2017
⬜ Plaintiff/People
☒ Petitioner
⬜ (Other)

⬜ Defendant
⬜ Respondent

⬜ Joint
⬜ Court

Atty/Party Introducing Sensitive Exhibit
Case No. 16FL000271
Pardes
Vs.
Wienick
DAVID H. YAMASAKI, EXEC. OFFICER/CLERK
By

D.Hentschke

, Deputy

NOTE: THIS ITEM IS A PERMANENT COURT
RECORD. DO NOT REMOVE FROM THE
COURTROOM
(CT 781)

App. 43
Fred Pardes
Subject:

FW: In re: toxicity

From: Andrew Wienick [mailto:awienick@gmail.com]
Sent: Tuesday, May 03, 2016 8:50 AM
To: Fred Pardes <fred@fredpardes.com>
Subject: In re: toxicity
Fred,
I understand that you emailed my wife asking permission to send a birthday card to Nathan and some correspondence to Samuel. You do not need permission to
send cards to the children (or gifts for that matter –
what ever happened to the Hannuakkah presents you
bought them?).
As per usual, everything is about what Fred wants. You
didn’t even have the decency to ask how Nathan and
Samuel are doing. Rather, you issue a new threat about
suing me while complaining about the “toxicity” in
your life.
What is the origin of this “toxicity”? Let’s examine the
facts:
•

YOU chose to have multiple affairs and during the course of your marriage to Michelle.

•

YOU chose to prolong your divorce and to sue
Michelle multiple times for no reason other
than to punish her for daring to divorce you

•

YOU chose a path of destruction against Nathan and Samuel’s grandmother, whom they
love dearly
(CT 782)

App. 44
•

YOU chose to align with Jennifer and her despicable boyfriend, Jason Brimer, instead of
looking out for the best interests of Nathan
and Samuel

•

YOU chose to proceed as a “creditor” in Jennifer’s probate action to deprive Nathan and
Samuel of their meager inheritance

As the above facts demonstrate, the toxicity in your life
starts and ends with you. You can choose to rid yourself
of such toxicity, but you won’t. It’s clear that this is who
you really are, and who you’ve always been since I first
met you back in 2002.
Life is simply too short for me to subject myself or my
family to the negativity which surrounds you. I value
my peace and serenity, much like your son, Jonathan,
whose children you have never met.
Again, I pose the question: when are you going to sue
Jonathan for grandparents’ visitation? Why are Nathan and Samuel more important to you than Noah
and Julia? I suspect it’s because you enjoy harassing
me, but you do not derive the same pleasure in harassing your own son.
As stated in my emails from March 11th (included below), I welcome you to file a grandparents’ visitation
action, which I will defend myself. If you want to see
your sons and your wives on the witness stand testifying about your toxicity, by all means, go ahead and file
your suit. If you want to see Jennifer’s filthy laundry
exposed for all the world to see, please, go ahead and
file. If you want everyone to understand how you

App. 45
permitted Nathan and Samuel to live in such squalor
with two drug addicts, please, go ahead and file.
If you ever want to have a meaningful relationship
with Nathan and Samuel, then you must take steps to
purge the toxicity from your life. Settling your dissolution action, and dropping the ridiculous civil suits
against Michelle would be a first good step.
Despite your narrative that Michelle is the villain in
all of this, I know the truth. And deep down, so do you.
Take some advice from me: move forward with your
life, put the past behind you, and I promise that you
will see all of that accumulated toxicity begin to dissipate.
—Andrew

(CT 783)

